        METEOROLOGICAL AND OCEANOGRAPHIC SUPPORT
              IN THE EUROPEAN THEATER


Report No. D-2001-152                      June 28, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
METOC                       Meteorological and Oceanographic
NEMOC                       Naval European Meteorology and Oceanography Center
OWS                         Operational Weather Squadron
SMO                         Senior METOC Officer
USAFE                       U.S. Air Forces in Europe
USEUCOM                     U.S. European Command
                       Office of the Inspector General, DoD
Report No. D-2001-152                                                      June 28, 2001
   (Project No. D2000LG-0102.003)

                  Meteorological and Oceanographic Support
                          in the European Theater

                                    Executive Summary

Introduction. This report is one in a series evaluating the effectiveness and efficiency
of DoD meteorological and oceanographic support provided by the Military
Departments to DoD and other governmental agencies.

The Navy and the Air Force provide meteorological and oceanographic support for
Service-unique and joint operations in the European theater through fundamentally
similar three-tier organizational structures. The Staff Oceanographer, U.S. Naval
Forces Europe, is responsible for providing meteorological and oceanographic services,
including forecasts and products tailored to specific maritime and littoral operating
areas, in support of Navy and joint operations in the European theater. The Naval
European Meteorology and Oceanography Center, Rota, Spain, is the primary
meteorological and oceanographic center for U.S. Naval Forces Europe. The Director
of Weather, U.S. Air Forces in Europe, is responsible for providing meteorological
services, including forecasts and products tailored to specific air-land areas, in support
of Army, Air Force, and joint operations in the European theater. The Operational
Weather Squadron at Sembach, Germany, is the primary meteorological center for U.S.
Air Forces in Europe.

Objectives. The overall objective of this self-initiated series of audits was to evaluate
DoD meteorological and oceanographic services and support to determine whether the
Military Departments were providing the most cost-effective and nonduplicative
meteorological and oceanographic services and support to DoD and other governmental
agencies. Specifically, this audit focused on evaluating Military Departments use of
DoD resources to determine whether meteorological and oceanographic services were
provided in the most effective and efficient manner in the European theater. We also
evaluated the management control program as it related to the specific audit objective.

Results. The U.S. European Command did not have a dedicated functional manager
for theater meteorological and oceanographic support. The addition of a dedicated
functional manager would improve joint meteorological and oceanographic support
provided by Navy and Air Force unilateral entities in the European theater. As a result
of not having a dedicated functional manager, joint meteorological and oceanographic
support in the European theater was not fully coordinated and integrated. See the
Finding section for a discussion of audit results. See Appendix A for a discussion of
our review of the management control program.

Summary of Recommendations. We recommend that the Commander in Chief,
U.S. European Command, reestablish a dedicated joint billet position for a senior
meteorological and oceanographic officer; establish guidance for joint meteorological
and oceanographic support; and establish a formal advisory group to coordinate and
integrate meteorological and oceanographic support within the European theater.

Management Comments. The U.S. European Command agreed, stating that the
senior meteorological and oceanographic officer should be a dedicated joint billet
position on the U.S. European Command staff. However, the Command could not
establish the billet unless a budget decision was reversed.

Although not required to comment, the Navy agreed that the U.S. European Command
senior meteorological and oceanographic officer should be a joint billet position that is
rotational between the Navy and Air Force. The Navy agreed that the U.S. European
Command should provide specific guidance for theater meteorological and
oceanographic responsibilities; however, the Navy stated that the recommendation as
written infringes upon Service responsibilities and should be rewritten. The Navy also
agreed that a formal joint meteorological and oceanographic advisory group should be
established at the U.S. European Command.

The Air Force agreed that the U.S. European Command senior meteorological and
oceanographic officer should be a joint billet position. The Air Force disagreed that the
U.S. European Command should establish guidance to address specific roles and
responsibilities of a dedicated senior meteorological and oceanographic officer. The
Air Force stated that the Director, Joint Staff, should refine Joint Staff guidance to
address the roles and responsibilities of meteorological and oceanographic positions and
support across all combatant commands. The Air Force agreed that a formal joint
meteorological and oceanographic advisory group should be established at the U.S.
European Command. A discussion of management comments is in the Finding section
of the report and the complete text is in the Management Comments section.

Audit Response. The U.S. European Command comments are partially responsive.
Although the U.S. European Command stated that it has no joint billets available;
during the mandated joint billet reduction of the U.S. European Command staff, the
U.S. European Command chose to completely eliminate its joint billet meteorological
and oceanographic staff while preserving, or slightly reducing, the number of joint
billet staff positions in its other headquarter functions. The U.S. European Command
should consider transferring a joint billet position from within its headquarters staff.
The U.S. European Command did not provide comments for the other
recommendations. We request the U.S. European Command provide comment on the
final report by July 27, 2001.

We disagree with the Air Force position and believe that it is the duty of the
U.S. European Command is to establish the most effective support for its area of
responsibility and to clearly outline and identify how it will execute operations from a
unified command perspective. The role of the supporting Services is to execute the
Commander in Chief, U.S. European Command, concept of operations. Although
Joint Staff guidance exists for defining roles and assigning responsibilities for
meteorological and oceanographic operations at unified commands, the Commander in
Chief, U.S. European Command, needs to supplement the Joint Staff guidance by
addressing theater-unique roles and responsibilities for meteorological and
oceanographic support.


                                            ii
Table of Contents

Executive Summary                                              i


Introduction
     Background                                                1
     Objectives                                                3

Finding
     DoD Meteorological and Oceanographic Support in Europe   4

Appendixes
     A. Audit Process
          Scope                                               12
          Methodology                                         13
          Management Control Program Review                   13
          Prior Coverage                                      14
     B. Report Distribution                                   15

Management Comments
          U.S. European Command                               17
          Department of the Navy                              18
          Department of the Air Force                         19
Background
    Unified Commands. There are nine unified commands: the U.S. European
    Command, the U.S. Pacific Command, the U.S. Joint Forces Command, the
    U.S. Southern Command, the U.S. Central Command, the U.S. Space
    Command, the U.S. Special Operations Command, the U.S. Transportation
    Command, and the U.S. Strategic Command. Each unified command requires
    meteorological and oceanographic (METOC) support and services to meet
    mission objectives, as assigned by the Joint Chiefs of Staff. This report focuses
    on METOC support for the U.S. European Command (USEUCOM) and its
    associated subordinate commands—U.S. Army Europe, U.S. Naval Forces
    Europe, and U.S. Air Forces in Europe (USAFE).

    The USEUCOM mission is to support and advance U.S. interests and policies
    throughout the assigned area of responsibility; provide combat-ready land,
    maritime, and air forces to Allied Command Europe (the North Atlantic Treaty
    Organization) and other U.S. unified commands; and conduct operations
    unilaterally or in concert with coalition partners. The area of responsibility of
    USEUCOM covers more than 13 million square miles and includes 91 countries
    and territories. The Navy and the Air Force provide METOC support for
    Service-unique and joint operations in the European theater through
    fundamentally similar three-tier organizational structures.

            Army. Public Law 253, “National Security Act of 1947,” chapter 343,
    July 26, 1947, assigns the Air Force responsibility for providing METOC
    support for Army operations. In the European theater, the Commander,
    7th Weather Squadron, Heidelberg, Germany, an Air Force element, is
    designated as the staff weather officer for U.S. Army Europe and is responsible
    for ensuring that meteorological support is provided to Army elements in the
    theater.

           Navy. The Staff Oceanographer, Commander in Chief, U.S. Naval
    Forces Europe, is responsible for providing METOC services, including
    forecasts and products tailored to specific maritime and littoral operating areas,
    in support of Navy and joint operations in Europe. The Navy primarily
    provides METOC services through a three-tier organizational structure to the
    commanders in chief by disseminating METOC products through DoD-approved
    communication systems. Strategic-level centers in the continental United States
    provide global and fine-scale numerical models and real-time oceanographic
    products needed by the Naval European Meteorology and Oceanography Center
    (NEMOC), Rota, Spain, to initialize and create regional forecasts for the
    European theater. NEMOC tailors numerical models to ensure regional
    forecasts support operational requirements for the USEUCOM area of
    responsibility. Navy METOC personnel within the USEUCOM area of
    responsibility are under the command of Commander, Stennis Space Center,
    Mississippi.

            Air Force. The Director of Weather, USAFE, is responsible for
    providing meteorological services, including forecasts and products tailored to
    specific air-land areas, in support of Army, Air Force, and joint operations in
    the European theater. USAFE, located at Ramstein Air Base, Germany, is the


                                        1
air component of USEUCOM and the U.S. air component of the North Atlantic
Treaty Organization. The Air Force primarily provides meteorological services
through a three-tier organizational structure to the commanders in chief by
disseminating meteorological products through DoD-approved communication
systems. Strategic-level production centers in the continental United States
provide numerical models and accurate real-time meteorological databases
needed by the Operational Weather Squadron (OWS) at Sembach, Germany
(OWS Sembach), to generate regional forecasts for the European theater. The
OWS concept is a result of U.S. Air Force Program Action Directive 97-10,
“Reengineering Actions for Air Force Weather,” December 1, 1997, which
directs the end-to-end restructuring of Air Force weather to provide an
improved mission focus; the establishment of numbered Air Force-aligned
OWSs; and the improvement of Air Force weather capabilities. OWS Sembach
tailors regional forecasts and uses products specific to the operating area to
provide fine-scale meteorological forecasts needed for base resource protection
and base-level support in the European theater. Air Force meteorological
personnel within the USEUCOM area of responsibility are under the command
of Commander, USAFE.

Guidance. Chairman of the Joint Chiefs of Staff Instruction 3810.01A,
“Meteorological and Oceanographic Operations” (the Instruction), February 25,
1998, establishes policy and assigns responsibilities for conducting METOC
operations at unified commands. In addition, the policy requires each
commander in chief to designate a senior METOC officer (SMO). The
Instruction and USEUCOM Directive 55-11, “Joint Task Force Headquarters
Policies, Procedures, and Organization,” January 15, 1999, state that the SMO
will:

       •   coordinate all METOC operations within the area of responsibility;

       •   develop and execute a METOC concept of operations that is
           integrated with, and complements, the commander in chief’s concept
           of operations;

       •   ensure that a METOC operations annex is developed for each
           commander in chief’s operation order, operation plan, or concept
           plan, as required; and

       •   ensure all requirements for METOC personnel and equipment are
           included in the time-phased force and deployment data and that the
           requirements are validated.

In addition, U.S. Joint Forces Command, “Joint Meteorological and
Oceanographic Handbook,” May 1, 2000, states that the SMO will:

       •   assist the designated joint METOC officer and appropriate Service
           Components in the development and operation of Joint Task Force
           METOC operations in the theater;

       •   coordinate and assign METOC tasks to Service Component METOC
           assets to fulfill operational needs within the theater; and



                                   2
             •   act as a liaison with the Joint Staff, other unified commands, and the
                 Services on joint support issues, including doctrine, tactics,
                 techniques, and procedures; communications; and ongoing
                 operations.

Objectives
     This report is one in a series evaluating the effectiveness and efficiency of DoD
     METOC support provided by the Military Departments to DoD and other
     governmental agencies. The overall objective of this self-initiated series of
     audits was to evaluate DoD METOC services and support to determine whether
     the Military Departments were providing the most cost-effective and
     nonduplicative METOC services and support to DoD and other governmental
     agencies. Specifically, this audit focused on evaluating Military Departments
     use of DoD resources to determine whether METOC services were provided in
     the most effective and efficient manner in the European theater. As part of our
     objectives, we reviewed the METOC support requirements established by
     USEUCOM and how the supporting elements were fulfilling the requirements.
     We also evaluated the management control program as it related to the specific
     audit objective. See Appendix A for a discussion of the audit scope and
     methodology, our review of the management control program, and prior
     coverage.




                                          3
           DoD Meteorological and Oceanographic
           Support in Europe
           USEUCOM did not have a dedicated functional manager for theater
           METOC support. USEUCOM eliminated its METOC joint billets and
           did not issue adequate guidance to provide a joint concept of operations
           for METOC support in the theater. As a result, joint METOC support in
           the European theater was not fully coordinated and integrated.


Dedicated Functional Manager
    USEUCOM did not have a dedicated functional manager for theater METOC
    operations. USEUCOM eliminated its joint METOC staff and did not issue
    adequate guidance to provide a joint concept of operations for METOC
    operations in the theater.

    Requirement for a Senior METOC Officer. Chairman of the Joint Chiefs of
    Staff Instruction 3810.01A requires each commander in chief to designate a
    SMO to effectively integrate METOC operations with other joint operations and
    to coordinate Component command METOC operations. The Instruction states
    that the SMO will normally be assigned to a joint billet position on the unified
    command’s headquarters staff; however, the Instruction does not require the
    position to be a joint billet. The following table shows the number of METOC
    joint billets that support each of the unified commands.



                           Unified Command METOC Billets
                Unified Command                               Billets

                U.S. European Command                           0
                U.S. Pacific Command                            1
                U.S. Joint Forces Command                       2
                U.S. Southern Command                           2
                U.S. Central Command                            4
                U.S. Space Command                              1*
                U.S. Special Operations Command                 0
                U.S. Transportation Command                     3
                U.S. Strategic Command                          8

                *Civilian position.


           METOC Interoperability Study. In 1992, the Joint Staff tasked the
    Military Departments and the Defense Information Systems Agency to form a
    joint working group to improve interoperability of military METOC services
    and support for joint operations. The Joint Interoperability of Military Weather


                                        4
           Support Working Group identified shortfalls in joint weather planning during
           Operation Desert Storm. The group’s “Joint Meteorological and Oceanographic
           Interoperability Team Functional Process Improvement AS-IS Modeling Report
           on Joint Meteorological and Oceanographic Operations,” May 1995, included
           among its recommendations that the designated SMO position should be a joint
           billet on the unified command staff.

                   Joint Duty Assignment. DoD Instruction 1300.20, “DoD Joint Officer
           Management Program Procedures,” December 20, 1996, states that joint
           matters are matters relating to the integrated employment of land, sea, and air
           forces, including matters related to national military strategy, strategic planning
           and contingency planning, and command and control of combat operations under
           a combatant command.1 An assignment to a designated position in a
           multi-Service or multi-national command or organization that involves
           integrating land, sea, and air forces is considered to be a joint duty assignment.
           DoD Instruction 1300.20 also states that the preponderance of the assignment’s
           duties must involve producing joint policy, strategic or contingency plans, or
           controlling operations under a combatant command. The SMO position
           qualifies as a joint duty assignment.

           USEUCOM METOC Joint Billets. USEUCOM did not have a dedicated
           functional manager for theater METOC operations. USEUCOM eliminated its
           four METOC joint billets, to include the SMO, in response to Program Budget
           Decision No. 710, “Defense Reform Initiative (DRI) – Joint Programs,”
           December 17, 1997. Program Budget Decision No. 710 required combatant
           command headquarters to eliminate 1,131 joint billets from their FY 1996
           baseline. The four USEUCOM METOC joint billets were to be transferred to
           USAFE and USAFE was to maintain the four METOC billets to provide support
           for the theater. Of the four billets, three were transferred to USAFE and the
           remaining billet was transferred to the Navy. USAFE placed one billet at
           USEUCOM, one billet at Special Operations Command Europe, and one billet
           within USAFE. The Navy abolished its billet and claimed the reduction as
           savings. The Commanding Officer, NEMOC, provided USEUCOM a Service
           staff METOC officer; however, the USAFE and NEMOC Service staff officers
           are not integrated into USEUCOM operations and cannot effectively carry out
           the responsibilities of the SMO.

           Memorandum of Agreement. As a result of eliminating the dedicated SMO
           position at USEUCOM, a memorandum of agreement (untitled and undated)
           between USEUCOM and USAFE was signed, designating the Director of
           Weather, USAFE, as the USEUCOM SMO. The Service staff METOC officer
           in the USAFE billet at USEUCOM serves as a liaison officer between
           USEUCOM and the SMO. The memorandum does not address the roles and
           responsibilities of the SMO and does not adequately address how the Director of



1
    A combatant command is a unified command with a broad continuing mission under a single
    commander established and so designated by the President, through the Secretary of Defense, and with
    the advice and assistance of the Chairman of the Joint Chiefs of Staff. Combatant commands typically
    have a geographic or functional area of responsibility.



                                                     5
           Weather, USAFE, would fulfill the duties of the SMO while performing duties
           related to Service and joint responsibilities. In addition, the memorandum does
           not address NEMOC support.

                   Multiple Roles of the USEUCOM SMO. As of March 2001, the
           Director of Weather, USAFE, was designated as the USEUCOM SMO. The
           Director was also the senior weather officer for the Commander, Air Force
           North, North Atlantic Treaty Organization. As the Director of Weather,
           USAFE, the Director is responsible for providing weather support to the Army
           and Air Force elements in the European theater, which requires coordination of
           all weather operations, METOC personnel, and units. As the senior weather
           officer to the Commander, Air Force North, the Director is responsible for the
           Air Force North staff meteorological duties, to include coordinating
           meteorological operations for Air Force North. With the significant Service,
           joint, and allied roles and responsibilities, the designated SMO might not be able
           to effectively provide METOC support to all.

                   Navy and NEMOC Support. The memorandum of agreement does not
           discuss significant theater METOC support capabilities. Specifically, the
           memorandum does not specify NEMOC support provided to USEUCOM and
           joint operations. NEMOC and OWS Sembach are two separate unilateral
           METOC entities within USEUCOM. Although the memorandum includes
           USAFE weather support, it does not include NEMOC support. In addition, the
           memorandum was not approved or signed by a representative from U.S. Naval
           Forces Europe. U.S. Naval Forces Europe and USAFE are the only two
           USEUCOM Components responsible for providing METOC products to
           USEUCOM operations. USAFE, through OWS Sembach, provides
           meteorological support. NEMOC provides both meteorological and
           oceanographic support. U.S. Naval Forces Europe should have been a
           signatory to the memorandum of agreement, and NEMOC support, specifically
           oceanographic support, should have been addressed in the memorandum.

           Concept of Operations Guidance. USEUCOM did not issue adequate
           guidance to provide a joint concept of operations for METOC support in the
           theater. Specifically, the SMO did not issue adequate METOC guidance as part
           of the concept of operations for Operation Northern Watch, as required by
           Chairman of the Joint Chiefs of Staff Manual 3122.03A, “Joint Operation
           Planning and Execution System, Volume II - Planning Formats and Guidance,”
           December 31, 1999. In addition, as discussed in our audit report, Report
           No. D2001-133, “Deliberate Planning for Meteorological and Oceanographic
           Operations (U),” June 1, 2001, the METOC operations portion for the
           USEUCOM deliberate plans was not fully developed.

           METOC support for Operation Northern Watch requires coordination and
           integration of NEMOC and two OWSs that support different unified commands.
           METOC support for aircraft sorties generated from Incirlik Air Base, Turkey,
           must be periodically coordinated with OWS Sembach and the 28th OWS at
           Shaw Air Force Base, South Carolina,2 as well as with NEMOC. Because a

2
    The 28th OWS provides meteorological support for the 9th Air Force and for the U.S. Central
    Command area of responsibility.



                                                    6
           Joint METOC Forecasting Unit was not established for Operation Northern
           Watch, the Incirlik Air Base combat weather team3 coordinates with each
           individual METOC center to help unify the air effort of the joint and combined
           operation. To ensure unity of effort, the METOC portion of the contingency or
           concept plan for Operation Northern Watch should be revised to clearly
           articulate the roles and responsibilities of OWS Sembach, the 28th OWS, and
           NEMOC. The USEUCOM SMO must periodically coordinate with the
           U.S. Central Command SMO and issue the appropriate guidance to the
           Component commander staff weather officers to ensure that deliberate or
           contingency plans can be effectively executed. Delays in issuing METOC
           support guidance could hinder operations of subordinate commands. However,
           the multiple roles of the USEUCOM SMO could prevent adequate planning and
           execution of the joint METOC concept of operations.


METOC Support in Theater
           METOC support in the European theater was not fully coordinated and
           integrated. Chairman of the Joint Chiefs of Staff Instruction 3810.01A requires,
           when possible, that the Military Departments assist each other in accomplishing
           METOC support in an efficient manner and avoid duplication. The USEUCOM
           SMO did not initially integrate Navy and Marine Corps METOC weather
           forecasters into the METOC operations portion of the concept of operations plan
           for Operation Noble Anvil.4 As a result, NEMOC and USAFE developed and
           executed their own unique METOC support plans rather than follow a joint
           theater concept of operations.

           Expanded Maritime Area of Responsibility. The Chairman of the Joint
           Chiefs of Staff expanded the USEUCOM area of responsibility as of October 1,
           2000. The expansion of the USEUCOM area of responsibility included
           transferring responsibilities for the waters off the east coast of Africa from the
           U.S. Pacific Command to USEUCOM and for the waters off Europe and west
           coast of Africa from the U.S. Joint Forces Command to USEUCOM. As a
           result, USEUCOM maritime responsibilities expanded to include additional
           ocean areas and the coastline of the African continent. As of March 2001,
           additional plans had been initiated, but not approved, to further expand
           USEUCOM maritime responsibilities during FY 2002. The increased maritime




3
    A combat weather team is an umbrella term covering any military weather organization that provides
    direct operational support at the tactical level.
4
    Operation Noble Anvil was the U.S. portion of Operation Allied Force, a North Atlantic Treaty
    Organization contingency response aimed at ensuring full compliance with United Nations Security
    Council Resolution 1199 (September 23, 1998). The purpose of the operation was to promote regional
    stability, cooperation, and security by ensuring a verifiable stop to all military action and the immediate
    ending of violence and repression in Kosovo.



                                                        7
           area of responsibility increases the necessity of oceanographic products5 from
           NEMOC and the necessity for NEMOC to be integrated into the USEUCOM
           METOC concept of operations.

           The SMO did not consider or plan for the need to address the expanded
           USEUCOM area of responsibility. USEUCOM, NEMOC, and USAFE senior
           Service METOC officers were aware that the area of responsibility had
           expanded. However, as of October 2000, USEUCOM, NEMOC, and USAFE
           personnel could not address how the expansion would affect overall theater
           METOC support. USEUCOM and USAFE also did not have a transition plan
           for the assumption of METOC responsibilities from the U.S. Pacific Command
           and the U.S. Joint Forces Command. NEMOC had developed a transition plan
           to assume METOC responsibilities from the U.S. Pacific Command and the
           U.S. Joint Forces Command; however, the USEUCOM SMO was unaware of
           the NEMOC plan.

           Integrating Joint METOC Support. The USEUCOM SMO did not initially
           integrate Navy and Marine Corps METOC weather forecasters into Operation
           Noble Anvil. During Operation Noble Anvil, the SMO designated OWS
           Sembach as the Joint METOC Forecasting Unit and an Air Force officer as the
           joint METOC officer. However, Operation Noble Anvil was led by naval
           forces and had the Joint Task Force headquarters in Naples, Italy. The METOC
           Letter of Instruction for Operation Noble Anvil did not incorporate METOC
           support capabilities of NEMOC, the Commander Sixth Fleet, or the II Marine
           Expeditionary Force into the concept of operations. The METOC support
           provided by OWS Sembach was primarily in support of Army and Air Force
           units. As a result, the initial Joint METOC Forecasting Unit did not include
           Navy and Marine Corps weather forecasters and could not provide
           oceanographic impacts to conditions in the joint operational area. In addition,
           on-site METOC support for the Joint Task Force commander in Naples did not
           exist; however, at a later date, an ad hoc group of Air Force and Navy
           personnel was formed to provide direct support to the Joint Task Force
           commander. Joint Publication 3-59, “Joint Doctrine, Tactics, Techniques, and
           Procedures for Meteorological and Oceanographic Operations,” March 23,
           1999, states that the Joint METOC Forecasting Unit should be collocated with
           Joint Task Force headquarters and the joint METOC officer should normally be
           the weather officer from the staff of the officer appointed to serve as the Joint
           Task Force commander. As a result of the SMO Letter of Instruction not
           properly establishing guidance and incorporating NEMOC into the concept of
           operations, the METOC support provided to the Joint Task Force commander
           for Operation Noble Anvil was initially fragmented and unorganized and
           required the Service METOC centers to expend extra effort to support the Joint
           Task Force.

           Providing Coordinated and Integrated METOC Support. To assist the SMO
           in providing effective coordinated and integrated METOC support within the
           theater, USEUCOM should establish a formal joint METOC advisory group, as
           outlined in Joint Publication 3-59. A formalized METOC advisory group could

5
    Oceanographic products include oceanographic data such as salt haze, water turbidity, surface
    temperatures, and acoustical propagation.



                                                      8
    serve as a force multiplier to ensure unity of METOC efforts supporting diverse
    joint and allied operations within the European theater. In addition, a formal
    METOC advisory group could coordinate multi-Service METOC matters and
    requirements; make recommendations for development and acquisition of
    facilities and capabilities to meet common Component operational needs; and
    discuss METOC matters of significance to USEUCOM Component
    commanders. For example, a formal METOC advisory group could coordinate
    multi-Service matters such as development of a Joint METOC Forecasting Unit
    for an operation. Also, a formal METOC advisory group could coordinate
    multi-Service and joint METOC support issues.


Conclusion
    The complexity and tempo of joint USEUCOM operations are high.
    USEUCOM averages 25 operations each year. Joint task forces depend on
    accurate METOC information to plan and direct operations. METOC
    information influencing a commander’s warfighting decisions usually cannot be
    derived from a single source of data. METOC data from regional METOC
    centers and tactical sources must be assembled into a database containing a
    complete and integrated summary of METOC conditions affecting the
    warfighter. Effective joint METOC support occurs when integrated METOC
    information is delivered to a commander in time to consider the operational
    impact of the weather.


Management Comment to the Finding and Audit Response
    The Air Force provided the following comments on the finding. For the full
    text of Air Force comments, see the management comments section of the
    report.

    Air Force Comments. The Air Force disagreed with the reported deficiencies
    with the memorandum of agreement between USAFE and USEUCOM. The Air
    Force stated that the memorandum of agreement was in accordance with DoD
    Instruction 4000.19, “Interservice and Intergovernmental Support,” August 9,
    1995, which states that memorandums of agreement are memorandums that
    define general areas of conditional agreement between two or more parties.
    Further, the Air Force stated that the memorandum of agreement is between Air
    Force and USEUCOM and does not need Navy signatory authority to designate
    the function of the SMO. Also, the Air Force stated that the report does not
    mention memorandums of agreement or understanding, or host tenant support
    agreements between NEMOC and U.S. Naval Forces Europe, NEMOC and
    USEUCOM, or NEMOC and OWS Sembach.

    Audit Response. In accordance with DoD Instruction 4000.19, two or more
    parties can be a signatory of a memorandum of agreement. The USEUCOM
    memorandum of agreement is deficient in that the Air Force is the only
    signature, even though oceanographic support for the theater is provided by


                                       9
    NEMOC. The intent of the memorandum of agreement was to establish an
    effective METOC support structure for USEUCOM, given that the USEUCOM
    METOC staff had been eliminated. Our intent is that the memorandum of
    agreement should address the issue of providing USEUCOM with effective
    METOC support by outlining the roles and responsibilities of the ad hoc Service
    members residing at USEUCOM headquarters and the two primary
    meteorological and oceanographic support organizations, OWS Sembach and
    NEMOC. During our audit, we were unable to identify that any memorandums
    of agreement or understanding, or host tenant support agreements between
    NEMOC and U.S. Naval Forces Europe, NEMOC and USEUCOM, or
    NEMOC and OWS Sembach existed. However, we did identify that NEMOC
    has a host tenant agreement with Commander, Naval Activities, for base
    operation support. That host tenant agreement includes the Navy command
    structure that establishes NEMOC as a functional USEUCOM METOC asset.


Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. As a result of management
    comments, we deleted Recommendation 3. to acknowledge that an on-site Air
    Force meteorological element is not needed to augment Air Force aviation units
    at Rota Naval Station, Spain. Accordingly, draft report Recommendation 4.
    was renumbered as Recommendation 3.

    We recommend that the Commander in Chief, U.S. European Command:

          1. Reestablish a dedicated joint billet position for a U.S. European
    Command senior meteorological and oceanographic officer at
    U.S. European Command headquarters.

    Management Comments. The USEUCOM agreed, stating that the senior
    METOC officer should be a dedicated joint billet position on the USEUCOM
    staff. However, USEUCOM stated that it could not establish a joint billet
    position without a reversal of the Program Budget Decision. The Navy agreed
    and stated there is a need for a joint billet senior METOC officer in USEUCOM
    and the joint billet should rotate between the Navy and the Air Force. The Air
    Force also agreed and stated that this is a USEUCOM issue to decide.

    Audit Response. The USEUCOM comments are partially responsive. During
    the mandated joint billet reduction of the USEUCOM staff, the USEUCOM
    chose to completely eliminate its joint billet METOC staff while preserving, or
    slightly reducing, the number of joint billet staff positions in its other
    headquarter functions. The USEUCOM should consider transferring a joint
    billet position from within the headquarters staff to the role of senior METOC
    officer. We request that the USEUCOM provide additional comments to the
    final report.




                                       10
      2. Establish meteorological and oceanographic guidance that
addresses the:

             a. Specific roles and responsibilities of a dedicated senior
meteorological and oceanographic officer.

             b. Specific roles, responsibilities, and meteorological and
oceanographic support of the Service Components.

               c. Procedures for coordinating a concept of operations for
joint meteorological and oceanographic support within the European
theater, to include Operation Northern Watch.

       3. Establish a formal joint meteorological and oceanographic
advisory group with defined roles and responsibilities to coordinate and
integrate meteorological and oceanographic support within the European
theater.

USEUCOM Comments Required. The USEUCOM did not provide comments
to Recommendations 2. and 3. We request that the USEUCOM provide
comments to the final report.

Management Comments. The Navy and Air Force stated that an Air Force
meteorological element was not required at Rota Naval Station, Spain, to
augment the existing naval METOC support.

The Air Force disagreed that USEUCOM should establish guidance to address
specific roles and responsibilities of a dedicated SMO. The Air Force disagreed
that USEUCOM should provide specific guidance on the roles, responsibilities,
and METOC theater support. The Air Force stated that the Director, Joint
Staff, should refine Joint Staff guidance to address the roles and responsibilities
of METOC positions across the unified commands.

The Navy and Air Force agreed that the USEUCOM should establish a formal
joint METOC advisory group and stated that a request exists for revision of the
Joint Staff instructions to require the unified commands to establish a joint
METOC advisory group.

Audit Response. We disagree with the Air Force position and believe it is the
duty of USEUCOM is to establish the most effective support for its area of
responsibility and to clearly outline and identify how it will execute operations
from a unified command perspective. The role of the supporting Services is to
execute the Commander in Chief, USEUCOM, concept of operations.
Although Joint Staff guidance exists for defining roles and assigning
responsibilities for METOC operations at unified commands, the Commander in
Chief, USEUCOM, needs to supplement the Joint Staff guidance by addressing
theater-unique roles and responsibilities for meteorological and oceanographic
support.




                                    11
Appendix A. Audit Process

Scope
    We reviewed and evaluated whether DoD, Joint Staff, and Military Department
    guidance and memorandums implemented from July 1947 through January 2001
    were adequate to ensure that the Military Departments provided METOC
    support efficiently and effectively. We reviewed “Joint Vision 2020,”
    June 2000; the “Naval Meteorology and Oceanography Command Strategic
    Plan,” May 1997; Program Budget Decision No. 710, “Defense Reform
    Initiative (DRI) – Joint Programs,” December 17, 1997; the “Navy-Air Force
    Cooperation Implementation Action Memorandum,” January 13, 1993; the “Air
    Force Weather Strategic Plan,” June 28, 2000; the Air Force Program Action
    Directive 97-10, “Reengineering Actions for Air Force Weather,” December 1,
    1997; and the USAFE Programming Plan 5005-97, Creek Cyclone - Draft,
    “Reengineering Actions for Air Force Weather,” January 10, 2001. We
    reviewed the processes used by the Military Departments to align METOC
    support with their primary customers. In addition, we reviewed inter-Service
    agreements to identify METOC services needed to support the warfighter in the
    European theater.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal:

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD
    Infrastructure Management high-risk area.




                                       12
Methodology
    We analyzed METOC requirements and inter-Service memorandums used by
    the Navy and the Air Force to identify METOC products and services needed to
    support the warfighter in the European theater by:

           •   conducting interviews with officials from USEUCOM; U.S. Naval
               Forces Europe; USAFE; the Office of the Army Deputy Chief of
               Staff for Intelligence; the Oceanographer of the Navy; the Air Force
               Director of Weather; the Air Force Weather Agency; and the Joint
               Staff;

           •   visiting the USEUCOM Operations Branch; the Naval Meteorology
               and Oceanography Command; the Staff Oceanographer, U.S. Naval
               Forces Europe; NEMOC; Director of Weather, USAFE; and
               OWS Sembach;

           •   reviewing personnel statistics to determine the distribution of
               METOC personnel at each of the locations visited in USEUCOM;

           •   identifying communication systems needed to transmit accurate,
               reliable, and timely METOC products required to support the
               warfighter; and

           •   evaluating methods used by the Navy and the Air Force to align
               theater METOC support centers with their customers.

    Audit Type, Dates, and Standards. We performed this program audit from
    September 2000 through March 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary. We did not use computer-processed data to
    perform this audit. Although we did our work in accordance with generally
    accepted Government auditing standards, we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of those
    controls.


                                       13
     Scope of Review of the Management Control Program. We reviewed the
     adequacy of management controls at USEUCOM related to METOC support in
     the European theater. Specifically, we reviewed the accuracy and reliability of
     the processes to identify, coordinate, validate, and revalidate METOC support
     provided to USEUCOM. In addition, we reviewed management’s
     self-evaluation applicable to METOC support.

     Adequacy of Management Controls. We identified material management
     control weaknesses, as defined by DoD Instruction 5010.40, within
     USEUCOM. USEUCOM did not adequately review the effectiveness of the
     METOC support provided. Without adequately reviewing the METOC support
     provided to ensure that deficiencies impacting mission accomplishment are
     eliminated, USEUCOM might not adequately accomplish its assigned missions.
     Recommendations 1. and 2.c., if implemented, will help ensure effective
     METOC support. A copy of the final report will be provided to the senior
     official in charge of management controls in the Joint Staff.

     Adequacy of Management’s Self-Evaluation. USEUCOM did not identify
     METOC support as an assessable unit and, therefore, did not identify or report
     the material management control weaknesses identified by the audit.


Prior Coverage
     This report is one in a series of Inspector General, DoD, reports discussing
     meteorological and oceanographic support. Unrestricted Inspector General,
     DoD, reports can be accessed over the Internet at
     http://www.dodig.osd.mil/audit/reports.


Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-151, “Meteorological and
     Oceanographic Support in the Pacific,” June 28, 2001

     Inspector General, DoD, Report No. D-2001-0133, “Deliberate Planning for
     Meteorological and Oceanographic Operations (U),” June 1, 2001

     Inspector General, DoD, Report No. D-2001-018, “Management and Oversight
     of the DoD Weather Program,” December 14, 2001




                                        14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff

Department of the Army
Deputy Chief of Staff for Intelligence
Auditor General, Department of the Army

Department of the Navy
Commander in Chief, U.S. Naval Forces Europe
Naval Inspector General
Auditor General, Department of the Navy
Oceanographer of the Navy
  Commander, Naval Meteorology and Oceanography Command
  Commanding Officer, Naval European Meteorology and Oceanography Center

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, U.S. Air Forces in Europe
Director of Weather
  Commander, Air Force Weather Agency
      Director of Weather, U.S. Air Forces in Europe
  Commander, Combat Air Force Command and Control System Program Office

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Joint Forces Command



                                          15
Unified Commands (cont’d)
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Space Command
Commander in Chief, U.S. Special Operations Command
Commander in Chief, U.S. Transportation Command
Commander in Chief, U.S. Strategic Command

Other Defense Organizations
Director, Defense Information Systems Agency

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         16
U.S. European Command Comments
                                 Final Report
                                  Reference




                                 Revised




                  17
               Department of the Navy Comments
Final Report
 Reference




Revised


Deleted




Renumbered
draft recom-
mendation
4. as
Recommen-
dation 3.




                                   18
Department of the Air Force Comments
                                       Final Report
                                        Reference




                                       Deleted
                                       Recommen-
                                       dation 3.
                                       and
                                       renumbered
                                       draft recom-
                                       mendation
                                       4. As
                                       Recommen-
                                       dation 3.




                     19
20
     Final Report
      Reference




     Deleted
     Recommen-
     dation 3.




21
Final Report
 Reference




Renumbered
draft recom-
mendation
4. as
Recommen-
dation 3.




               22
     Final Report
      Reference




     Revised




23
Final Report
 Reference




Revised




               24
25
Final Report
 Reference




Revised




               26
     Final Report
      Reference




     Revised




     Deleted




27
     Final Report
      Reference




     Deleted




     Deleted




28
Audit Team Members

The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to this report are
listed below.

       Shelton R. Young
       Evelyn R. Klemstine
       Gary R. Padgett
       Michael J. Guagliano
       Raymond Hopkins
       Nadine Ramjohn
